DC02 1325.8
(08-93)
United States Government                                                          Department of Energy


memorandum
      DATE:     April 16, 2003                               Audit Report No.: OAS-L-03-16
  REPLY TO
   ATTN OF:     IG-35 (A03DC006)

   SUBJECT:     Audit of "Department of Energy's Nuclear Weapons Incident Response
                Program"

          TO:   Administrator, National Nuclear Security Administration

                INTRODUCTION AND OBJECTIVE

                The Department of Energy's (Department) Nuclear Weapons Incident Response Program
                (Emergency Response Program) provides a national capability to rapidly respond to any
                radiological emergency or nuclear accident within the United States and abroad. The
                program is comprised of seven major capabilities/assets, including the Search Response
                Team (SRT) and the Radiological Assistance Program (RAP). SRT provides technical
                assistance with activities involving lost or stolen nuclear devices, weapons, or materials.
                RAP, which is usually the first responder, assesses the emergency situation and determines
                what further steps should be taken to minimize the hazards of a radiological emergency.
                These capabilities are maintained primarily through participation in international, national,
                state, and local operations; exercises; and training. An all-volunteer force, primarily from
                the Department's nuclear weapons laboratories, makes up the cadre of deployment forces.

                Since September 11, 2001, the Department has seen a significant increase in the number of
                emergency deployments. For example, in the year following September 11, 2001,
                emergency response teams deployed 227 times consuming about 88,000 man-hours at a
                cost of over $13 million. Over 90 percent of these deployments were carried out by the
                RAP and SRT teams. Prior to September 11, 2001, teams deployed only a limited number
                of times.

                Our objective was to determine whether the goals and objectives of the Emergency
                Response Program were being met. Specifically, we sought to determine whether selected
                emergency response teams deployed when required.

                CONCLUSIONS AND OBSERVATIONS

                The survey disclosed that the selected emergency response teams were generally able to
                deploy when required; however, the ability of the teams to continue to deploy at the




                                          OFFICIAL USE ONLY
current level is at risk. Since September 11, 2001, the'Department has experienced a
significant increase in the number of deployments. The following examples illustrate the
mission increase that now faces the National Nuclear Security Administration (NNSA).


*   Prior to September 11, 2001, one of the Department's teams deployed, on average,
    about one to three times a year. The total cost of these deployments was about
    $10,000. Since then, this same team has deployed at least 53 times, at a cost of about
    $7 million.

*   The teams from another program deployed on average about 7 times per year.
    However, in the 12-month period following September 11, 2001, this group deployed
    158 times. These deployments consumed about 31,000 man hours at a cost of about
    $4.7 million.

*   Initially, managers determined that two fixed-wing aircraft and two helicopters would
    be needed to support the mission at one site. Since then, they have determined that an
    additional aircraft will be needed.

In spite of this significant increase in mission, the Emergency Response Program only
received about $ 20 million of the requested $42 million of additional funds to cover the
cost of these increased deployments. The Department has been able to keep pace with the
emergency requests by reprogramming funds designated for other activities such as
training and stockpile stewardship. Additionally, normal duties and responsibilities of
personnel who volunteer for emergency response deployments have gone undone in
support of the Emergency Response Program. Continuing to divert funds and personnel
could impact the Department's ability to respond to an incident.

Since the events of September 11, 2001, Department managers have not performed an
overall reassessment of programmatic missions and therefore, have not developed a
written, coherent plan of how to proceed forward. However, during the week of March 3,
2003, program managers established a task force to prepare a strategic plan for the
program. The report was initially due at the end of March but has been preempted by the
current military crisis in Iraq. Managers planned to use the strategic plan as a basis for
obtaining additional funds for the program. While it is unclear what the strategy will
include beyond funding issues, we believe a comprehensive strategy is needed to address
the future of the program. At a minimum, we suggest that it (1) address how the program
will continue if additional funding is not provided, (2) study the impact of providing
support to the Department of Homeland Security, and (3) reassess the mission and goals of
the program.

The Office of Inspections recently completed a review of the Joint Technical Operations
Team, one of the seven major Emergency Response Program capabilities/assets. The

                         OFFICIAL USE ONLY

                                     2
results of that review, which are contained in the Draft Report on Inspection of the
Department of Energy's Ability to Meet the Aircraft Requirements of the Joint Technical
OperationsTeam, are not for public distribution.

SCOPE AND METHODOLOGY

The audit was performed from December 2002 to March 2003 at the NNSA, Washington,
DC; Las Vegas Site Office, Las Vegas, NV; and Albuquerque Service Center,
Albuquerque, NM. We also included the following sites: Sandia National Laboratories,
Albuquerque, NM and Los Alamos National Laboratory, Los Alamos, NM. The scope of
the audit was limited to determining whether selected emergency response teams deployed
when required. We did not assess the quality of the deployments.

To accomplish the audit objective, we:

*   Reviewed Federal and Departmental requirements related to emergency response;

*   Reviewed prior external and internal reports regarding emergency response including
    the Federal Managers Financial Integrity Act;

*   Determined the number of deployments and time spent deploying;

*   Examined budgetary information including costs associated with various assets under
    the program;

*   Reviewed work authorization orders to determine contractor assignments;

*   Discussed emergency response with key Headquarters, Las Vegas Site Office,
    Albuquerque Service Center, and Sandia officials, and;

*   Reviewed Performance Measures established in accordance with the Government
    Performance and Results Act.

The audit was performed in accordance with generally accepted Government auditing
standards for performance audits, and included tests of internal controls and compliance
with laws and regulations to the extent necessary to satisfy the audit objective.
Accordingly, we assessed the significant internal controls related to the nuclear facilities.
Because our review was limited, it would not necessarily have identified all internal
control deficiencies that may have existed. Additionally, we did not rely extensively on
computer-processed data. In addition, we reviewed the implementation of Government
Performance and Results Act of 1993, as related to emergency response.



                           OFFICIAL USE ONLY

                                       3
Since no recommendations are being made in this letter report, a formal response is not
required. We appreciate the cooperation of your staff during the audit.




                              Lawrence R. Ackerly, Division Direc r
                              National Nuclear Security Adminis ation
                               Audits Division
                              Office of Inspector General

cc: Director, Policy and Internal Controls Management, NA-66
    Team Leader, Audit Liaison Team, ME-2




                          OFFICIAL USE ONLY

                                     4
bcc: DPA (2)
      AIG for Investigations
     AIG for Inspections
     Don Farmer, Investigations, Richland, WA
      Wilma Slaughter
      Gloria Jennings
      Capital Region
      Eastern Region
     SAlbuquerque Audit, Las Vegas Audit, Livermore Audit, Los Alamos Audit, Y-12
      Audit
      Washington Audit Group
     NNSA Audits Project File - A03DC006




                        OFFICIAL USE ONLY

                                   5
DCE F 1325.8
(08-93)
United States Government                                                            Department of Energy


memorandum
       DATE:     April 16, 2003

  REPLY TO
   ATTN OF:      IG-35 (A03DC006)

    SUBJECT:     Final Report Package for "Department of Energy's Nuclear Weapons Incident Response
                 Program"
           TO:   Director for Performance Audits and Administration

                 Attached is the required final report package on the subject audit. The pertinent details are:

                 1. Actual Staff days:   92

                    Actual Elapsed days: 125

                 2. Names of OIG audit staff:

                   Assistant Director: David Sedillo
                   Team Leader: Lynda Crowder
                   Auditor-in-Charge: John Wall
                   Audit Staff: Arlene Hunt

                 3. Coordination with Investigations and Inspections: We coordinated our efforts with the Office
                    of Investigations and the Office of Inspections on December 24, 2002. We coordinated further
                    with the Office of Inspections on April 14, 2003.




                                                 awrence R.Ackerly, Divisin Director
                                                NNSA Audits Division
                                                Office of Inspector General

                 Attachments:
                 1. Final Report (2)
                 2. Monetary Impact Report
                 3. Audit Project Summary Report
                 4. Audit Database Information Sheet
                           MONETARY IMPACT OF REPORT NO.: OAS-L-03-16


      1. Title of Audit:     Department of Energy's Nuclear Weapons Incident Response Program

      2. Division:           NNSA Audits Division/Washington Audit Group

      3. Project No.:        A03DC006

      4. Type of Audit:

             Financial:                                        Performance:        X
                Financial Statement              _               Economy and Efficiency                    X
                Financial Related                                Program Results
             Other (specify type):

      5.
                                                                                      MGT.      POTENTIAL
           FINDING            BETTER USED               QUESTIONED COSTS            POSITION     BUDGET
                                                                                                 IMPACT
                                     Recurring
(A)            (B)            (C)       (D)         (E)           (F)       (G)        (H)         (I)
               Title         One      Amount     Questioned   Unsupported   Total   C=Concur      Y=Yes
                             Time       Per       Portion       Portion             N=Noncon      N=No
                                       Year                                          U=Undec
                                                                                                       N




TOTALS--ALL FINDINGS                                                                 ,   '. *    ".,


      6. Remarks:

      7. Contractor:     None                            10. Approvals:
      8. Contract No.:    None                           Division Director & Date:
      9. Task Order No.:     None                        Technical Advisor & Date
   04/22/03          TUE 08:02 FAX 65697                        DOE/OIG WASHINGTON GROUP
                                                                                     0   44 ABQ-AUDITS                          1I002
                                                   Office of the Inspector General (OIG)
                                                    Audit Project Summary Report (APS)


Report run ong                         April 22,    2003 9:01 AM
                                                                                                                            Page 1

 Audit#s A03DC006                  Ofct CFA    Title: DOB NUCLEAR WEAPONS INCIDENT RESPONSE PROGRAM

                                                              S***     Milestones ***
                                                                        Planned
                                                                        P----------- --------------             Actual
                                              Profile                End of Survey              Revised
  Entrance Conference:                      01-OCT-02                 12-DEC-02           12-DEC-02          12-DEC-02
  Survey Completed:                                                   12-MAR-03           12-MAR-03          12-MAR-03
 Field Work Complete:
 Draft Report Issuedt                                                 30-AUG-03
 Exit Conference:
 Completed with Report:                     30-SEP-03                 17-MAR-03           04-APR-03          16-APR-03   (R )
 ---------          Elapsed Days                    364                        95                 113            125
 ----------          Staff Days                           0                     0                                 92
 Date Suspended:                                                 Date Terminated:
 Date Reactivated:                                               Date Cancelled:
 DaysSuspended(Cur/Tot)                     .0 (               ) Report Numbers   OAS-L-03-13
Rpt Titleg             DEPARTMENT OF ENERGY'S NUCLEAR WEAPONS INCIDENT RESPONSE PROGRAM

               ..                             "**** Audit Codes and Personnel **,*

Aud Types     Not Found
Category: OTH OTHER                                                          ADs      84           CROWDER
DOE-Orgs      Not Found                                                      AICz     236          WALL
Maj Iss:  106 Not Found                                                      HDQ-Mon; 432          GAMAGE
Site:     MRA MULTI-REGION AUDIT                                             ARM:     152          SEDILLO

                                                   ****       Task Information ****

       Task Not
       Task Order Dt:                                          CO Tech. Rep:      ,
       orig Auth Hrs:                                          Orig Auth Costs;
       Current Auth:                                           Current Auth Costs
       Tot Actl IPR Hr:                                        Tot Actl Costs

                                                     **** Time Charges ****
                     Emp/Cont Name            Nudays                    Last Date
                     BOBIAN,       D                 .5                 25-JAN-03
                     CROWDER,      L                4.8                 05-APR-03
                     HUNT,     A                   26.8                 19-APR-03
                     WALL,     J                   59.7                 05-APR-03
                      Totals                       91.8
                                                   **** ATC Information ****
Ate           Ate Rank       Atcdeec
                      AUDIT DATABASE INFORMATION SHEET


1. Project No.: A03DC006

2. Title of Audit: Department of Energy's Nuclear Weapons Incident Response Program

3. Report No./Date: OAS-L-03-16, April 16, 2003

4. Management Challenge Area: No

5.   Presidential Mgmt Initiative: N/A

6.   Secretary Priority/Initiative: Yes

7. Program Code: NA-42

8. Location/Sites: Various Laboratories and Headquarters

9. Finding Summary: N/A

10. Keywords: (include as many as you like)
